No. 19-1272
IN THE

Supreme Court of the United States
THOMAS CHRISTOPHER RETZLAFF,
Petitioner,
v.
JASON LEE VAN DYKE,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
CERTIFICATION OF COMPLIANCE
WITH WORD LIMITATIONS
I, Marc J. Randazza, counsel for the Respondent Jason Lee Van Dyke, hereby
certify that, according to the word-count tool in Microsoft Word, the Brief of
Respondent in Opposition to a Petition for a Writ of Certiorari consists of 7,887 words,
including footnotes and excluding the sections enumerated by Rule 33.1(d). The Brief
therefore complies with Rule 33. l(g).

Marc J. Randazza
Dated: July 7, 2020.

